Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Medicare Beneficiary Access
   to Skilled Nursing Facilities
               2001




                        JULY 2001
                      OEI-02-01-00160
                           OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                                Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                         HEADQUARTERS

Jodi Nudelman, Project Leader
                 Tricia Davis, Program Specialist

Vincent Greiber, Lead Analyst
                 Brian Richie, Director, Technical Support Staff

Danielle Fletcher
                             Linda Moscoe, Technical Support

Nicole Gillette

Thomas Purvis, Region IX

Thomas Zimmermann


.



     To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
            Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                         EXECUTIVE SUMMARY

PURPOSE

         To assess the effects of the prospective payment system on access to skilled nursing
         facilities for Medicare beneficiaries.


BACKGROUND

         The Balanced Budget Act (BBA) of 1997 changed reimbursement for skilled nursing
         care from a cost-based method to a prospective payment system (PPS) of fixed,
         predetermined rates. The prospective payment system was implemented in January 1999.
          In addition, the Balanced Budget Refinement Act increased certain payment rates under
         PPS that went into effect October 1, 2000.

         This report is a follow-up to two previous Office of Inspector General inspections, Early
         Effects of the Prospective Payment System on Access to Skilled Nursing Facilities, OEI-
         02-99-00400 and Medicare Beneficiary Access to Skilled Nursing Facilities: 2000, OEI-
         02-00-00330. Both reports found that most discharge planners are able to place Medicare
         patients in SNFs. However, about half of discharge planners believe that nursing homes
         are changing their admissions practices in response to PPS.

         We used several methods to address the inspection issues. We conducted a survey of a
         random sample of 208 hospital discharge planners that focused on beneficiary access to
         skilled nursing care. We also analyzed the Centers for Medicare and Medicaid Services’
         Provider of Services File and the National Claims History File.


FINDINGS

Most Medicare beneficiaries continue to have access to skilled
nursing facilities

         Little change in placing beneficiaries since increases to payment rates. About 73
         percent of discharge planners report that they are able to place all of their Medicare
         patients who need care in skilled nursing facilities. Another 20 percent are able to place
         all but 1 to 5 percent, and 7 percent are not able to place more than 5 percent. Discharge
         planners report that they have to contact an average of three facilities to place a Medicare
         patient. They explain that patients whom they are not able to place in a skilled


Medicare Beneficiary Access to SNFs 2001           i                                    OEI 02-01-00160
         nursing facility often remain in the hospital or go home either with or without home
         health care.

         Sufficient number of Medicare nursing home beds seems to be available. Seventy-
         five percent of discharge planners report that there are enough skilled nursing facility
         beds in their area for Medicare patients. Those who say there are not enough beds note
         that facilities are often full or that the bed supply in their area has not kept pace with the
         needs of a growing elderly population. Medicare data indicate that the number of skilled
         nursing facility beds nationwide increased by nearly 38 percent from 1997 to 2000.

Patients with certain service needs experience delays

         Some discharge planners report delays in placing Medicare patients in skilled nursing
         facilities. Thirty-six percent say they experience delays sometimes, while 16 percent say
         they usually or always experience delays when placing beneficiaries in skilled nursing
         facilities. Seventy-six percent of discharge planners who report delays say that they are
         associated with certain medical conditions or service needs. They most commonly cite
         delays associated with patients who need IV antibiotics and/or expensive drugs,
         ventilator-dependent patients, and those who require dialysis.

         Over half of the discharge planners who report delays associated with medical conditions
         or service needs attribute these delays to PPS. Some explain IV therapy often requires
         expensive medications that are not adequately reimbursed for under PPS. In addition,
         some dialysis patients experience delays when transportation costs are not covered by
         Medicare. Lastly, ventilator and wound care patients are delayed because their needs are
         often labor intensive and require expensive medical supplies.


CONCLUSION

         Similar to the findings of our two previous inspections, most Medicare beneficiaries
         continue to have access to skilled nursing facilities. At the same time, access to care does
         not appear to have changed as a result of increases to certain payment rates under the
         Balanced Budget Refinement Act of 1999. We encourage the Centers for Medicare and
         Medicaid Services to continue to monitor access to care and skilled nursing facilities’
         responses to the payment system.




Medicare Beneficiary Access to SNFs 2001           ii                                     OEI 02-01-00160
                         TABLE                     OF               CONTENTS



                                                                                                                      PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


         Most Medicare Beneficiaries Continue to Have Access to SNFs . . . . . . . . . . . . . . . . . . . 5


         Patients with Certain Service Needs Experience Delays . . . . . . . . . . . . . . . . . . . . . . . . . . 7


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9



APPENDICES

         A:        Recent OIG SNF Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


         B:        Confidence Intervals for Key Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         C:        Proportion of Beneficiaries Discharged to SNFs by Top DRGs . . . . . . . . . . . . 12


         D:        Average Hospital Length of Stay by Top DRGs . . . . . . . . . . . . . . . . . . . . . . . . . 13





Medicare Beneficiary Access to SNFs 2001                      iii                                              OEI 02-01-00160
                                    INTRODUCTION

PURPOSE

         To assess the effects of the prospective payment system on access to skilled nursing
         facilities for Medicare beneficiaries.

BACKGROUND

         This inspection re-examines the effects of the prospective payment system (PPS) on
         Medicare beneficiary access to skilled nursing facilities (SNFs). It is part of the Office of
         Inspector General’s (OIG) continuing commitment to safeguard skilled nursing care and
         to respond to ongoing concerns that the new payment system may adversely affect
         beneficiary access to SNFs.

         In 1999, the Centers for Medicare and Medicaid Services (CMS) asked the OIG to assess
         the effects of the prospective payment system for SNFs on access to care for Medicare
         beneficiaries. In response, the OIG completed two reports, Early Effects of the
         Prospective Payment System on Access to Skilled Nursing Facilities, OEI-02-99-00400
         and Medicare Beneficiary Access to Skilled Nursing Facilities: 2000, OEI-02-00-00330.
         Both reports found that most discharge planners are able to place Medicare patients in
         SNFs. However, about half of discharge planners believe that nursing homes are
         changing their admissions practices in response to PPS.

         In another report entitled Trends in the Assignment of Resource Utilization Groups by
         Skilled Nursing Facilities, OEI-02-01-00280, we examined the proportion of Medicare
         beneficiaries assigned to each of the Resource Utilization Groups (RUGs) in light of
         recent legislative changes to PPS. (See Appendix A.)

Medicare Payments to SNFs

         Medicare Part A helps to pay for SNF care when a beneficiary meets certain conditions.
         These conditions include a requirement of daily skilled nursing or rehabilitation services,
         a prior three consecutive days stay in a hospital, admission to an SNF within a short
         period of time after leaving the hospital, treatment for the same condition that was treated
         in the hospital, and a medical professional certifying the need for daily skilled nursing or
         rehabilitation care. The number of SNF days provided under Medicare is limited to 100
         days per benefit period, with a co-payment required for days 21 through 100. After the
         Medicare 100 day SNF Part A benefit runs out, the Medicare Part B benefit continues to
         pay for physician services and other Part B-covered services.



Medicare Beneficiary Access to SNFs 2001           1                                    OEI 02-01-00160
         Between 1990 and 1998, expenditures for Medicare SNF services have increased, on
         average, 25 percent annually, reaching $13.6 billion in 1998. Between 1990 and 1997,
         the number of beneficiaries receiving SNF care more than doubled, rising from 638,000
         to 1.6 million. Medicare’s average payment per SNF day also more than doubled, from
         $98 in 1990 to $262 in 1998. At the same time, the number of days of care per SNF
         patient served dropped from 37 to 32.1 The latest data available show that SNF
         expenditures have decreased slightly to $12.2 billion in Fiscal Year 1999.

SNF Prospective Payment

         In order to control escalating nursing home costs, Congress passed the Balanced Budget
         Act of 1997 that changed SNF reimbursement from a cost-based to a prospective
         payment system. Beginning with the first cost reporting period after July 1, 1998, SNFs
         are paid through prospective, case-mix adjusted per diem payments that cover routine,
         ancillary, and capital-related costs, including most items and services for which payment
         was previously made under Medicare Part B. The per diem payment is based on Fiscal
         Year 1995 Part A & B costs adjusted using the SNF market basket index, the case-mix
         from resident assessments, and geographical wage variations. The market basket index
         represents an inflation factor. The case-mix index takes into account that SNF residents
         require different levels of care.

         To determine the case-mix, SNFs are required to assign residents into 1 of 44 Resource
         Utilization Groups (RUGs). The RUGs are divided into seven major categories: special
         rehabilitation, extensive services, special care, clinically complex, impaired cognition,
         behavior problems, and reduced physical function. To determine the RUG, SNFs must
         fill out the Minimum Data Set 2.0 (MDS) assessment which is a standardized set of
         clinical and functioning status measures. Facilities must complete an assessment for each
         patient at scheduled intervals during his or her stay.

         In the Fall of 1999, Congress enacted the Balanced Budget Refinement Act (BBRA) in
         response to providers’ concerns that reductions in payments were too severe. The BBRA
         included a 4 percent across-the-board increase in payments to SNFs for Fiscal Years
         2001 and 2002 and a temporary 20 percent increase for 15 RUGs for patient conditions
         considered medically complex. These include all the RUGs in the clinically complex,
         special care, and extensive care categories as well as three RUGs in the special
         rehabilitation category. In addition, several costly non-therapy ancillary services,
         including certain ambulance services, prostheses, and chemotherapy drugs, were
         excluded from the prospective payment system and paid for separately. The BBRA
         changes went into effect on October 1, 2000.



         1
         General Accounting Office, Skilled Nursing Facilities: Medicare Payment Changes Require Provider
Adjustments But Maintain Access, 1999.


Medicare Beneficiary Access to SNFs 2001             2                                        OEI 02-01-00160
         In 2000, Congress further adjusted the payment rates under the Benefits Improvement
         and Protection Act (BIPA). The BIPA increased the inflation update to the full market
         basket in Fiscal Year 2001 and raised the nursing component of the RUGs by 16.6
         percent in an effort to improve PPS nursing staff ratios. Additionally, the BBRA 20
         percent increase to the three rehabilitation RUGs was spread across all 14 special
         rehabilitation RUGs as a 6.7 percent increase. The other RUGs increased in the BBRA
         maintained the 20 percent increase. These changes went into effect on April 1, 2001.

Discharge Planners

         By definition, all Medicare Part A beneficiaries in SNFs are discharged from hospitals.
         Hospital discharge planners are responsible for coordinating the discharge of patients to
         SNF care and are therefore in a unique position to assess the effects of the prospective
         payment system on access to nursing home care.

         Federal regulations require all hospitals to offer discharge planning services. The goal of
         these services is to identify a patient’s post-hospital needs and ensure that he or she is
         discharged to a safe environment with the appropriate level of services. In most
         hospitals, the social work, case management, or utilization review department has
         primary responsibility for discharge planning. Patients can be placed in a variety of
         settings including SNFs, home health care, hospices, or intermediate care.

         Discharge planning staff generally follow a standard process. In a typical scenario, staff
         screen patients’ records within 24 hours of admission. They attempt to identify patients
         who will require discharge planning services, such as those who are 65 years and older
         and living alone or those with possibly life-threatening illnesses. They then conduct a
         psycho-social assessment and discuss the patient’s care plan with his or her nurses and
         physicians as well as utilization review staff, and other relevant interdisciplinary team
         members. Discharge planners also solicit the patient’s preferences and contact family
         members or other potential caregivers to get their input and cooperation. Based on this
         information, they attempt to place the patient in the most appropriate setting.

Other Work on Access to Skilled Nursing Facilities

         In 1999, the General Accounting Office (GAO) released Skilled Nursing Facilities:
         Medicare Payment Changes Require Provider Adjustments But Maintain Access. The
         report generally concurs with the OIG reports discussed earlier. It found that Medicare
         beneficiaries’ ability to obtain care does not appear to have decreased since the
         implementation of PPS. However, about two-thirds of discharge planners reported that
         SNFs have become more reluctant to admit higher-cost patients, such as those requiring
         expensive drug treatment or infusion therapy. Many discharge planners further noted
         that facilities prefer to admit patients needing short-term rehabilitation.




Medicare Beneficiary Access to SNFs 2001          3                                    OEI 02-01-00160
METHODOLOGY

         We used several methods to address the inspection issues. These methods replicate the
         approach used in the two prior OIG inspections on access to SNFs.

Discharge Planner Survey

         We conducted a survey of hospital discharge planners that focused on beneficiary access
         to home health care. To do this, we selected a random sample of 225 acute care hospitals
         with 30 or more beds from the 50 States and the District of Columbia. We conducted
         interviews with 208 discharge planners or their designees within a 3 week period from
         April 2, 2001 to April 20, 2001. We achieved a 92 percent response rate. Note that this
         sample is the same sample of hospitals used in the OIG inspection, Medicare Beneficiary
         Access to Home Health Care: 2001, OEI-02-01-00180.

Analysis of Medicare Data

         In addition, we analyzed Medicare data for beneficiaries who were discharged from a
         hospital to a SNF. Specifically, we analyzed the proportion of Medicare beneficiaries
         discharged to SNFs by key diagnosis related groups (DRGs) to determine the extent to
         which SNFs are admitting different types of patients. We also analyzed the length of
         hospital stays by key DRGs to examine whether patients are experiencing longer delays
         before entering SNFs.

         These analyses are based on data from the National Claims History File. We identified
         all beneficiaries who: 1) were discharged from a hospital between January 1, 2001
         through March 31, 2001, and; 2) had a SNF stay that started within 30 days of their
         hospital discharge. We then compared these data to the same data for the first quarters of
         1997, 1998, 1999, and 2000. In addition, we examined trends in the number of SNFs and
         the number of nursing home beds certified for Medicare based on data from the Provider
         of Services (POS) File.

Limitations

         The data for the most recent quarter, January to March 2001, are not as complete as the
         other quarters of data. Additional and adjusted claims will be collected for this quarter
         that may alter these data.

         This inspection was conducted in accordance with the Quality Standards for
         Inspections issued by the President’s Council on Integrity and Efficiency.




Medicare Beneficiary Access to SNFs 2001          4                                    OEI 02-01-00160
                                           FINDINGS

Most Medicare beneficiaries continue to have access to skilled
nursing facilities

Little change in placing beneficiaries since increases to payment rates

         About 73 percent of discharge planners report that they are able to place all of their
         Medicare patients who need care in skilled nursing facilities. Another 20 percent are
         able to place all but 1 to 5 percent. Seven percent are not able to place more than 5
         percent. (See Figure 1). About 80 percent of discharge planners were able to place all of
         their Medicare patients last year. The differences between the estimates for this year and
         last year, however, are not statistically significant. Most discharge planners (86 percent)
         also report no difference in the number of patients whom they cannot place since last year
         when increases were made to certain payment rates under PPS.

                                               Figure 1
                       Proportion of Discharge Planners Placing Patients in SNFs




                                                               Source: Discharge Planner Survey, 2001



         Discharge planners report that they have to contact an average of three facilities to place
         a Medicare patient. They explain that patients whom they are not able to place in a SNF
         often remain in the hospital or go home either with or without home health care.

         Medicare data support discharge planners’ experiences. The data show that there are no
         large changes in the types of Medicare beneficiaries being discharged to SNFs in the last
         5 years. A decrease in a diagnosis related group (DRG) may indicate that patients with
         that condition are experiencing problems with access to care. However, there are no
         large decreases in the proportion of Medicare beneficiaries for the 10 most common

Medicare Beneficiary Access to SNFs 2001          5                                       OEI 02-01-00160
         DRGs discharged to SNFs in any of the years between 1997 and 2001. The 10 most
         common DRGs are the same in each of the last 5 years and represent about 44 percent of
         all Medicare beneficiaries discharged to SNFs. (See Appendix C.)

         Two of these DRGs experienced small decreases that are greater than one percentage
         point. Specifically, respiratory infections and inflammations (DRG 79) and specific
         cerebrovascular disorders (DRG 14) decreased by 1.5 percentage points and 1.2
         percentage points, respectively, between 1997 and 2001.

         Another report issued by the OIG, Trends in the Assignment of Resource Utilization
         Groups by Skilled Nursing Facilities, OEI-02-01-00280, also found no large changes in
         the types of patients being admitted to SNFs in the last 2 years. Specifically, the report
         shows that the proportion of Medicare beneficiaries assigned to each of the Resource
         Utilization Groups (RUGs) at admission has remained about the same from 1999 to 2001.

Sufficient number of Medicare nursing home beds seems to be available

         Seventy-five percent of discharge planners report that there are enough SNF beds in their
         area for Medicare patients. Those who say there are not enough beds explain that
         facilities are often full or that the bed supply in their area has not kept pace with the
         needs of a growing elderly population. A similar proportion of discharge planners in
         urban and rural hospitals report that the bed supply for Medicare patients is sufficient in
         their area. In addition, most (86 percent) report that the number of Medicare beds in their
         area has stayed the same or increased since last year.

         Medicare data indicate that the number of Medicare SNF beds continues to increase. As
         shown in Figure 2, the number of Medicare beds nationwide increased by nearly 38
         percent between 1997 and 2000. This increase was largely due to a rise in the number of
         dually certified beds that are available for either Medicare or Medicaid patients. The
         total number of certified nursing home beds and the number of SNFs nationwide
         increased only slightly during this time period.

                                                 Figure 2

                               Total Number of SNFs and Nursing Home Beds


                                            1997       1998         1999        2000        Percent Change
                                                                                               1997-2000

          Number of SNFs                   14,772     15,025       14,911      14,839             0.5%

          Total Medicare Beds              681,456   722,278      836,701     939,356            37.8%

         Total Certified Beds*    1,528,061          1,556,495    1,556,569   1,560,661           2.1%
         * Medicare and Medicaid beds                                           Source: Provider of Services File




Medicare Beneficiary Access to SNFs 2001                      6                                     OEI 02-01-00160
Patients with certain service needs experience delays

         Some discharge planners report delays in placing Medicare patients in SNFs. 2 Thirty-six
         percent say they experience delays sometimes, while 16 percent say they usually or
         always experience delays when placing beneficiaries in SNFs. A similar proportion of
         discharge planners reported placement delays last year.

         Most discharge planners (76 percent) who report delays say that they are associated with
         certain medical conditions or service needs. They most commonly cite delays associated
         with patients who need IV antibiotics and/or expensive drugs, ventilator-dependent
         patients, and those who require dialysis. (See Figure 3.) Discharge planners reported
         similar conditions associated with delays last year. These are also the same medical
         conditions and service needs discharge planners describe for beneficiaries whom they
         cannot place.

                                            Figure 3

              Responses of Discharge Planners who Report that Delays are Associated 

                              with Medical Conditions/ Service Needs 


                      Medical Condition/ Service Need                           Percent
                                                                                (n=142)

             IV Antibiotics/ Expensive Drugs
                                     36%

             Ventilator
                                                          28%

             ESRD/ Dialysis
                                                      25%

             Behavior Problems/ Alzheimer’s
                                      23%

             Wound Care/ Decubitus Ulcers                                         22%

             Infectious Disease/ Isolation Needs                                  22%
             Note: Categories are not mutually exclusive.       Source: Discharge Planner Survey, 2001



         A few discharge planners also note delays that are associated with other types of patients.
         Some mention delays placing patients with tracheotomies or respiratory failure and
         patients requiring parenteral or enteral feedings. Others cite patients with specialized
         equipment needs such as those with weight problems. A few cite delays associated with
         patients who have mental health issues, chemotherapy needs, and HIV/AIDS. They
         explain that these patients may be delayed because they require expensive medications or
         more supervision than other patients.




         2
          Delays in placement occur when a patient has been cleared for discharge by the physician but no SNF bed
has been secured.
Medicare Beneficiary Access to SNFs 2001                    7                                     OEI 02-01-00160
         Medicare data, however, show no increases in the average hospital length of stay for
         Medicare beneficiaries discharged to SNFs. In fact, the average length of stay slightly
         decreased for all but 1 of the 10 most common DRGs between 1997 and 2001.
         Specifically, the average length of stay for each of these DRGs decreased by less than
         one day. (See Appendix D.)

         Over half of discharge planners who report that delays are associated with medical
         conditions or service needs attribute these delays to PPS. They comment that delays are
         due to low reimbursement and to staffing issues under PPS. Some explain IV therapy
         often requires expensive medications that are not adequately reimbursed for under PPS.
         In addition, some dialysis patients experience delays when transportation costs are not
         covered by Medicare.3 Lastly, ventilator and wound care patients also experience delays
         because their needs are often labor intensive and require expensive medical supplies.

         Discharge planners mention several other factors that affect the placement process.
         About half of all discharge planners report that SNFs have changed their admissions
         practices since last year. They most commonly say that SNFs request more information
         about patients and more frequently conduct on-site visits prior to admission. Some
         discharge planners also cite family issues. They mention that family members or
         caregivers sometimes delay the process to consider different placement options or
         because they want to wait for a bed in a particular nursing home. Others cite issues that
         are related to physicians. A few note that physicians may prefer to wait for a bed in a
         hospital-based SNF so that they can track the patient more closely.




         3
           The BBRA allows ambulance transport to be paid for under Part B, although some discharge planners
suggest that transportation remains a problem.

Medicare Beneficiary Access to SNFs 2001               8                                         OEI 02-01-00160
                                           CONCLUSION

         Similar to the findings of our two previous inspections, most Medicare beneficiaries
         continue to have access to skilled nursing facilities. At the same time, access to care does
         not appear to have changed as a result of increases to certain payment rates under the
         Balanced Budget Refinement Act of 1999. We encourage the Centers for Medicare and
         Medicaid Services to continue to monitor access to care and skilled nursing facilities’
         responses to the payment system.




Medicare Beneficiary Access to SNFs 2001          9                                    OEI 02-01-00160
                                                                             APPENDIX A


                           Recent Office of Inspector General
                           Skilled Nursing Facility Inspections


Office of Inspector General, U.S. Department of Health and Human Services, “Trends in the
Assignment of Resource Utilization Groups by Skilled Nursing Facilities,” OEI-02-01-00280,
July 2001.

Office of Inspector General, U.S. Department of Health and Human Services, “Nursing Home
Resident Assessment Resource Utilization Groups,” OEI-02-99-00041, January 2001.

Office of Inspector General, U.S. Department of Health and Human Services, “Medicare
Beneficiary Access to Skilled Nursing Facilities: 2000,” OEI-02-00-00330, September 2000.

Office of Inspector General, U.S. Department of Health and Human Services “Early Effects of
the Prospective Payment System on Access to Skilled Nursing Facilities: Nursing Home
Administrator’s Perspective,” OEI-02-99-00401, October 1999.

Office of Inspector General, U.S. Department of Health and Human Services “Early Effects of
the Prospective Payment System on Access to Skilled Nursing Facilities,” OEI-02-99-00400,
August 1999.




Medicare Beneficiary Access to SNFs 2001     10                                  OEI 02-01-00160
                                                                                  APPENDIX B



                        Confidence Intervals for Key Findings
         We calculated confidence intervals for key findings for discharge planners. The point
         estimate and 95% confidence intervals are given for each of the following:

                       KEY FINDINGS                             n      POINT     CONFIDENCE
                                                                      ESTIMATE    INTERVAL

    Seventy-three percent of discharge planners report
    that under PPS they are able to place their Medicare        208     73%         ±6.1%
    patients in skilled nursing facilities.

    Most discharge planners (86 percent) also report no
    difference in the number of patients who they cannot
                                                                195     86%         ±4.8%
    place since last year when several changes were
    made to increase payments to PPS.

    Seventy-five percent of discharge planners report
    that there are enough SNF beds in their area for            208     75%         ±5.9%
    Medicare patients.

    Thirty-six percent say they experience delays
                                                                208     36%         ±5.9%
    sometimes.

    Most discharge planners (76 percent) who report
    delays say that they are associated with certain            186     76%         ±6.1%
    medical conditions or service needs.

    Over half of the discharge planners who report
    delays associated with medical conditions or service        142     59%         ±8.1%
    needs attribute these delays to PPS.

    About half of discharge planners report that SNFs
    have changed their admissions practices since last          208     53%         ±6.8%
    year.




Medicare Beneficiary Access to SNFs 2001                   11                        OEI 02-01-00160
                                                                                    APPENDIX C



              Proportion of Beneficiaries Discharged to SNFs

                 by Top Diagnosis Related Groups (DRGs)*



                                           1997   1998    1999   2000        2001      1997-2001

        Initial Hospital DRG                                                           Difference


  DRG 079- Respiratory infections
                                           4.2%   3.4%    3.1%   2.8%        2.7%          -1.5
  and inflammations

  DRG 014- Specific
                                           6.7    6.0     6.0     5.6         5.5
  cerebrovascular disorders                                                                -1.2

  DRG 210- Hip and femur
                                           5.2    4.6     4.7     4.5         4.3          -0.9
  procedures except major joint


  DRG 416- Septicemia                      2.7    2.5     2.3     2.2         2.2          -0.5


  DRG 209- Major joint and limb
                                           8.5    8.2     8.4     8.0         8.5           0.0
  reattachment procedures

  DRG 088- Chronic obstructive
                                           2.7    3.2     3.3     3.1         2.8           0.0
  pulmonary disease

  DRG 089- Simple pneumonia
                                           6.5    8.0     8.0     8.2         6.6           0.1
  and pleurisy

  DRG 127- Heart failure and
                                           4.8    5.0     4.9     4.9         5.1           0.2
  shock

  DRG 296- Nutritional and misc.
                                           2.6    2.6     2.7     2.8         2.9           0.3
  metabolic disorders

  DRG 320- Kidney and urinary
                                           2.1    2.2     2.2     2.3         2.5           0.5
  tract infections
                                                                 Source: National Claims History File


*Note: Differences may be due to rounding.




Medicare Beneficiary Access to SNFs 2001             12                                OEI 02-01-00160
                                                                                    APPENDIX D



        Average Hospital Lengths of Stay For Beneficiaries
       Discharged to SNFs by Top Diagnosis Related Groups
                             (DRGs)*


                                           1997   1998   1999    2000       2001      1997-2001

        Initial Hospital DRG               Days   Days   Days    Days       Days      Difference


  DRG 014- Specific
                                           9.7    9.4    9.2      9.2        9.1          -0.6
  cerebrovascular disorders

  DRG 089- Simple pneumonia and
                                           9.0    8.7    8.6      8.7        8.4          -0.6
  pleurisy

  DRG 296- Nutritional and misc.
                                           8.6    8.3    8.2      8.1        8.0          -0.5
  metabolic disorders

  DRG 320- Kidney and urinary
                                           8.2    7.8    7.8      7.8        7.7          -0.5
  tract infections


  DRG 127- Heart failure and shock         9.2    8.8    8.8      8.8        8.7          -0.4


  DRG 088- Chronic obstructive
                                           8.8    8.5    8.4      8.5        8.4          -0.4
  pulmonary disease

  DRG 209- Major joint and limb
                                           6.7    6.4    6.4      6.5        6.3          -0.3
  reattachment procedures

  DRG 210- Hip and femur
                                           8.1    7.8    7.8      7.8        7.8          -0.2
  procedures except major joint

  DRG 079- Respiratory infections
                                           11.2   11.1   11.1     11.3       11.1          0.0
  and inflammations


  DRG 416- Septicemia                      10.5   10.3   10.4     10.9       10.7          0.2

                                                                Source: National Claims History File


*Note: Differences may be due to rounding.




Medicare Beneficiary Access to SNFs 2001            13                                OEI 02-01-00160
